                                      Department of the Interior 
                                      Office of Inspector General 
                                                                  
                                                                       
                                                                       
                                                                       
                    AUDIT REPORT 



                       U.S. Fish and Wildlife Service 
                    Federal Assistance Program Grants 
                   Awarded to the Government of Guam, 
                     Department of Agriculture, From  
               October 1, 2004, Through September 30, 2006 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
    Report No. R­GR­FWS­0009­2007                    February 2007 
                  United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                            12030 Sunrise Valley Drive, Suite 230
                                    Reston, VA 20191
                                                                               February 14, 2008

                                     AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner  
               Director of External Audits

Subject:       Audit on the U.S. Fish and Wildlife Service Federal Assistance Program Grants
               Awarded to the Government of Guam, Department of Agriculture, From
               October 1, 2004, Through September 30, 2006 (No. R-GR-FWS-0009-2007)

        This report presents the results of our audit of costs incurred by the Government of Guam
(Guam), Department of Agriculture (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to Guam under the Federal Assistance
Program for State Wildlife Restoration and Sport Fish Restoration (Federal Assistance Program).
The audit included claims totaling $1,808,892 on 13 grants that were open during fiscal years
(FYs) ended September 30 of 2005 and 2006 (see Appendix 1). The audit also covered the
Department’s compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned $1,273 in costs because the Department
received federal funds (made a drawdown) for expenses before the associated work had been
performed and drew down funds in excess of the expenditures recorded in the accounting
system. In addition, we found that the Department had inadequate controls over its equipment
and its use of hunting license revenues.

       We provided a draft report to FWS and the Department for a response. We summarized
the Department and FWS Region 1 responses after each recommendation, as well as our
comments on the responses. We list the status of each recommendation in Appendix 2.

      Please respond in writing to the findings and recommendations included in this report by
May 14, 2008. Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the Federal Assistance
Audit Coordinator, Mr. Chris Krasowski, or me at 703-487-5345.

cc:   Regional Director, Region 1, U.S. Fish and Wildlife Service
                                                Introduction

Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Federal Assistance Program for State Wildlife Restoration and Sport
Fish Restoration. Under the Federal Assistance Program, FWS provides grants to States2 to
restore, conserve, manage, and enhance their sport fish and wildlife resources. The Acts and
federal regulations contain provisions and principles on eligible costs and allow FWS to
reimburse States up to 75 percent of the eligible costs incurred under the grants. For certain
government entities, including Guam, the Acts allow for full reimbursement of eligible costs
incurred under the grants. The Acts also require that hunting and fishing license revenues be
used only for the administration of the State’s fish and game agency. Finally, federal regulations
and FWS guidance require States to account for any income they earn using grant funds.

Objectives
Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under Federal Assistance Program grants in accordance with
           the Acts and related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling $1,808,892 on the 13 grants that were open during FYs
2005 and 2006 (see Appendix). We report only on conditions that existed during the audit
period. We performed our audit at the Department’s Division of Aquatic and Wildlife Resources
(Division) headquarters in Mangilao, Guam. We also visited the Masso Reservoir restoration
project and two locations that had fishing platforms and shallow water mooring buoys. We
performed this audit to supplement, not replace, the audits required by the Single Audit Act
Amendments of 1996 and by Office of Management and Budget Circular A-133.




1
    16 U.S.C. §§ 669 and 777, as amended, respectively.
2
 The Acts define the term “State” to include the District of Columbia, the Commonwealth of Puerto Rico, the
Virgin Islands, Guam, American Samoa, and the Commonwealth of the Northern Mariana Islands.

                                                          2
Methodology
We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   • examining the evidence that supports selected expenditures charged to the grants by the
     Department;

   • reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
     in-kind contributions, and program income;

   • interviewing Department employees to ensure that personnel costs charged to the grants
     were supportable;

   • conducting site visits to review equipment and other property;

   • determining whether the Department used hunting and fishing license revenues solely for
     sport fish and wildlife program purposes; and

   • determining whether Guam passed required legislation assenting to the provisions of the
     Acts.

To the extent possible, we relied on the work of Deloitte Touche, the certified public accounting
firm that performed the Single Audits for FYs 2005 and 2006, which helped to avoid duplication
of audit effort.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions in these systems for testing. We did not project the results of the tests to the total
population of recorded transactions or evaluate the economy, efficiency, or effectiveness of
Department operations.




                                                  3
Prior Audit Coverage
On March 4, 2004, we issued our audit report “U.S. Fish and Wildlife Service Federal Assistance
Grants Administered by the Government of Guam, Department of Agriculture, Division of
Aquatic and Wildlife Resources from October 1, 1999, to September 30, 2000” (Report No.
R-GR-FWS-0029-2004). Based on the Corrective Action Plan provided to us by FWS, we
closed all recommendations in the report as resolved and implemented. We did not refer any
recommendations to the Department of Interior, Office of Policy, Management, and Budget for
tracking.

We reviewed Guam’s Single Audit Reports for FYs 2005 and 2006. The reports did not include
any findings regarding the Department’s Federal Assistance Program grants or programs under
the grants.




                                              4
                                      Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. The Department claimed no in-
kind contributions and earned no program income or fishing license revenue. However, we
identified several conditions that resulted in the findings listed below, including questioned costs
totaling $1,273. We discuss the findings in more detail in the Findings and Recommendations
section.

       Questioned Costs. Guam made a $32,000 drawdown of Federal Assistance Program
       funds before ensuring that the work required under the grant had been performed. In
       addition, Guam’s drawdowns exceeded by $900 the amounts shown in its financial
       accounting system on two of the Federal Assistance Program grants. These actions led to
       $821 in lost interest to the federal government and a $452 overpayment to the
       Department.

       Inadequate Equipment Controls. Required physical inventories were not conducted
       and equipment had not been tagged, leaving Guam’s equipment vulnerable to misuse.

       Potential Improper Use of Hunting License Fee Revenues. The Department collected
       license fee revenues of $24,270 and $22,635 for FYs 2005 and 2006, respectively, but
       could not demonstrate that it spent the license revenues solely on fish and wildlife
       program activities.

Findings and Recommendations

A.     Questioned Costs — $1,273

       1.      Unallowable Payment — Questioned $821 in Lost Interest

               Guam requested and received reimbursement for $32,000 in expenses for work
               that was to be performed by the University of Guam (University). Guam made
               this drawdown of grant funds before ensuring that the University performed the
               work required under the grant. As a result, Guam and the University received an
               advance payment, which is not allowed under the grants. The federal government
               lost $821 in interest from the advance payment.

               The Department’s wildlife restoration program grant (Grant W-1-R-13) included
               work under a $32,000 memorandum of understanding (MOU) between the
               Department and the University. Under the MOU, the University was to study the
               movement patterns and habitat usage of the Mariana fruit bat. The University
               submitted an invoice to the Department for the full $32,000 on February 10, 2005.
               The Department approved the invoice on February 25, 2005, and entered the

                                                 5
transaction into the financial accounting system on March 10, 2005. The
Department of Administration (Administration) drew down the $32,000 from
FWS on March 15, 2005, and issued a $32,000 check to the University on
March 18, 2005.

Guam received this reimbursement under Grant W-1-R-13 without any monthly
or quarterly financial reports or other cost data showing that the University had
incurred costs under the MOU. Subsequently, the University discontinued work
under the MOU and refunded $22,514 back to the Department on November 29,
2005.

The Code of Federal Regulations (50 C.F.R. §§ 80.15(a) and 80.16) states that
grantees must support all costs with source documents or other records that allow
them to substantiate the application of funds. These regulations also allow
payments only for the federal share of allowable costs incurred in accomplishing
approved projects. In addition, 31 C.F.R. § 205.15(a) states that an interest
liability to the federal government occurs if federal funds are in a State account
prior to the day the funds are used for program purposes.

Agency officials were unaware that the $32,000 invoice shown in the financial
accounting system represented an advance to the University and that the
regulations require costs to be incurred before they make drawdowns.

Based on the Treasury short-term borrowing rates applicable to the period of the
drawdown, we estimated that the improper advance of funds resulted in the
federal government losing interest of about $821. Accordingly, we are
questioning this amount.

Department officials believed that some work under the MOU may have been
performed between October 1, 2004, and March 2005 and that our interest
calculations should be revised to reflect this fact. However, we could not
determine what, if any, work was done because the University did not provide any
financial reports. Further, University correspondence dated March 2, 2005,
discussed the fact that funds still remained from 2004 that they wanted to transfer
into different accounts before using the 2005 funds.

Recommendations

We recommend that FWS require the Department to:

1. either repay the $821 of interest lost by the federal government due to the
   improper advance or reduce the current years grant reimbursement by $821,
   and

2. develop policies and implement procedures to ensure drawdowns are made
   only when supported by documentation of the costs incurred and to prevent
   advance payments for services to be provided in the future.

                                 6
     Department Response

     Department officials concurred with the recommendations. They indicated that
     they are developing procedures to ensure that when they use Federal Assistance
     Program funding to pay for work performed under MOUs with outside
     organizations, the payments will be made on a reimbursement basis only. They
     also indicated they would require additional justification and support for the
     payments requested. The response did not address the $821 lost interest.

     FWS Response

     FWS regional officials concurred with the recommendation and stated that they
     will address any outstanding issues in the corrective action plan.

     OIG Comments

     While FWS concurred with the recommendations and Department officials
     indicated they are taking action to address the recommendations, additional
     information is needed in the corrective action plan. The plan should include:

        •   the specific actions taken or planned to resolve the $821 in lost interest,

        •   targeted completion dates,

        •   titles of officials responsible for implementing the actions taken or
            planned to resolve and implement the recommendation, and

        •   verification that FWS officials reviewed and approved of actions taken or
            planned by the Department.

2.   Excessive Drawdowns of Federal Funds — Questioned $452

     Guam’s drawdowns exceeded the amounts shown in its financial accounting
     system on two Federal Assistance Program grants. These grants included Grant
     FW-3-C-12 for fish and wildlife coordination and Grant F-9-D-6 for the
     maintenance and redeployment of fish aggravation devices and shallow water
     mooring buoys.

     Under Grant FW-3-C-12, the Department drew down and claimed costs totaling
     $136,251. The financial accounting system showed actual grant costs of only
     $135,799, a difference of $452. Under Grant F-9-D-6, FWS records showed that
     the Department made drawdowns totaling $72,715. The financial accounting
     system showed actual grant costs of only $72,267, a difference of $448. Thus, the
     Department received reimbursement for $900 ($452 + $448) more than its actual
     costs.



                                      7
Under 43 C.F.R. § 12.60, grantees must maintain adequate fiscal and accounting
controls to ensure that financial reports are accurate and that accounting records
contain sufficient information relating to grant expenditures. In addition, the
FWS Service Manual (522 FW 1.10) requires that drawdowns be based on
incurred costs and be adequately supported.

Department and Administration employees are responsible for preparing the
financial status reports (SF-269s) and for comparing the amounts shown on the
SF-269s with the costs shown in the financial accounting system to ensure
accuracy. We believe that the differences in the two grants were due to the fact
that accounting adjustments were made after the SF-269s were submitted to FWS.

Department officials submitted a revised SF-269 for Grant F-9-D-6 which now
agrees with FWS records. Accordingly, we are no longer questioning the $448
difference. Department officials also agreed that they drew down more than they
should have for Grant FW-3-C-12. Accordingly, we have questioned the $452
difference. FWS officials have approved the Department’s request to reduce the
current years grant reimbursement by $452 to correct for this error.

Recommendations

We recommend that FWS require the Department to:

1. either repay the $452 that was drawn down in excess of actual costs under
   Grant FW-3-C-12 or reduce the current years grant reimbursement by $452;
   and

2. establish fiscal and accounting controls to ensure that (a) accurate financial
   reports are submitted to FWS, (b) accounting adjustments made after the SF-
   269s are submitted are reported to FWS if the adjustments affect grant
   expenditures, and (c) drawdowns of Federal Assistance Program grant funds
   are limited to incurred costs.

Department Response

The Department concurred with the recommendations.

FWS Response

FWS regional officials concurred with the recommendations and stated that they
will address any outstanding issues in the corrective action plan.

OIG Comments

While FWS concurred with the recommendations and Department officials
indicated they are taking action to address the recommendations, additional
information is needed in the corrective action plan. The plan should include:

                                 8
                     •   targeted completion dates,

                     •   titles of officials responsible for implementation, and

                     •   verification that FWS officials reviewed and approved of actions taken or
                         planned by the Department.

B.      Inadequate Equipment Controls

        Guam did not adequately account for and control fixed assets (equipment) purchased with
        Federal Assistance Program grant funds and hunting license revenues. The Department’s
        Division conducts annual inventories and maintains a master equipment list for its
        equipment items. We found that the master equipment list did not always contain
        information on the acquisition date, the cost, the location, and/or the funding source for
        all of the equipment items. In addition, we physically inspected 12 equipment items3
        (costing $134,365) that were purchased in FYs 2005 and 2006 and found that none of the
        items purchased had property identification labels.

        Complete and accurate records are essential for managing equipment effectively. Under
        50 C.F.R. § 80.18 and the FWS Service Manual (522 FW 1.16), each State is responsible
        for the accountability and control of all assets to assure that they are used for the purpose
        for which they were acquired throughout their useful life. Also, 50 C.F.R. § 80.19
        requires each State to maintain current and complete property records. Finally, 43 C.F.R.
        § 12.72 requires each State to follow their own laws and procedures when managing
        equipment.

        Administration is the agency responsible for conducting certain control activities,
        including reviewing the physical inventories conducted by the various Guam agencies
        and maintaining the official fixed asset records for all Guam agencies. Their fixed assets
        inventory procedures require a physical inventory be performed every two years; that the
        results of the agency inventories be crosschecked with Administration’s fixed asset
        records; and that any discrepancies between the inventories and the fixed asset records be
        reconciled.

        Both the FYs 2005 and 2006 Single Audit reports stated that the inventories were not
        conducted because Guam was in the process of implementing its fixed asset management
        system and that efforts were first being made to tag all of the equipment with bar code
        property identification labels. Administration officials told us that they have prepared a
        schedule to meet with the agencies and perform the inventory control checks.

        Guam’s failure to conduct the required periodic inventories and to keep accurate records
        hinders the Department’s ability to safeguard and account for its equipment. As a result,
        the Department cannot ensure that equipment items purchased with Federal Assistance
        Program grant funds were being used for the purposes for which they were originally

3
  The 12 equipment items we inspected included six computers, two office partition and furniture purchases, two
trucks, and two copiers.

                                                      9
acquired. Nor can it assure that any equipment items purchased with hunting license
revenues were being used for fish and wildlife related purposes. In addition, inadequate
controls over equipment place the Department at greater risk of losing equipment or
being unable to locate it.

Subsequent to our audit fieldwork, the Division’s Administrative Officer told us that they
are considering options such as bar code readers to facilitate the labeling and to simplify
the equipment inventories. He also told us that they hope to have the new equipment in
place within the next year.

Recommendations

We recommend that FWS require the Department to:

1. implement equipment controls, including attaching property identification labels to all
   of the equipment items; continuing to conduct the periodic physical inventories; and,
   as required under current inventory procedures, reconciling the results of the periodic
   physical inventories to official fixed asset records; and

2. update its master equipment list to include the source of funding, acquisition date,
   cost, and location for all of the equipment items.

Department Response

Department officials did not specifically state whether they agree or disagree with the
recommendations. They did indicate they are taking actions to address the
recommendations, including developing an inventory system and procedures to properly
account for all equipment. Through development of the system, they hope to facilitate
the tagging of equipment. They anticipate completing the system by the summer of 2008.

FWS Response

FWS regional officials concurred with the recommendation and stated that they will
address any outstanding issues in the corrective action plan.

OIG Comments

While FWS concurred with the recommendations and Department officials indicated they
are taking action to address the recommendations, additional information is needed in the
corrective action plan. The plan should include:

   •   targeted completion dates,

   •   titles of officials responsible for implementation, and

   •   verification that FWS officials reviewed and approved of actions taken or planned
       by the Department.

                                        10
C.   Potential Improper Use of Hunting License Fee Revenues

     The Department sells hunting licenses and collected license fee revenues of $24,270 and
     $22,635 for FYs 2005 and 2006, respectively. However, the Department could not
     demonstrate that it spent the license fee revenue solely on fish and wildlife program
     activities, as required.

     Under 50 C.F.R. § 80.4, revenues from license fees paid by hunters and anglers must be
     used only for the administration of the State fish and wildlife agency. A diversion of
     license fee revenues occurs when any portion of the license revenues is used for any
     purpose other than the administration of the fish and wildlife agency. If a diversion
     occurs, the State becomes ineligible to participate from the date the diversion is declared
     by the FWS Director until the license revenues diverted are restored or an amount equal
     to the license revenue diverted is returned and available for use for the administration of
     the fish and wildlife agency.

     The Department deposits revenues from the sale of hunting licenses, deer tags, and
     special hunts (license fees) into the Wildlife Conservation Fund (Fund). The Department
     also deposits revenues from other sources, such as fees charged for permits to import
     commercial seafood and tropical fish, into the Fund.

     Total revenues deposited to the Fund in FYs 2005 and 2006 were $33,860 and $30,506,
     respectively. The Department can identify the amount of license fee revenues deposited
     into the Fund because it records such revenues in separate accounts. However, the Fund
     does not include similar accounts for license fee expenditures. Rather, all expenditures
     are tracked in the accounting system as expenditures paid for with Fund monies, with no
     differentiation between expenditures paid for with license fee revenues and those paid for
     with monies collected from other sources.

     The Department expended $15,173 in FY2005 and $34,312 in FY2006 from the Fund. A
     limited review of the Fund expenditures indicated that monies were spent for such items
     as signs ($13,330), fuel ($10,903), a boat trailer ($6,468), repairs of a jet ski and trailer
     ($3,549), a laptop computer ($2,798), supplies ($2,550), and an air-conditioning unit
     ($2,491). We were unable to readily determine whether these expenditures were for fish
     and wildlife program activities. The use of hunting license fee revenues for non-fish and
     wildlife program purposes would place the Department in a potential diversion situation.

     Department officials told us that the Division Chief has programmatic oversight of the
     Fund. Officials stated that spending plans are developed each year and that past Fund
     expenditures have also included the purchase of vehicles for law enforcement, signs and
     range markers for marine protected areas, gasoline and vehicle maintenance for law
     enforcement, fisheries and wildlife educational materials, building repairs, and a backup
     generator.




                                              11
Recommendations

We recommend that FWS require the Department to:

1. certify that the FYs 2005 and 2006 license fee revenues were used only for eligible
   fish and wildlife program activities; and

2. develop policies and procedures that will ensure that license fee revenues collected
   subsequent to FY2006 are used only for eligible fish and wildlife program activities,
   such as establishing a separate account within the Fund to track the expenditures of
   license fee revenues.

Department Response

Department did not specifically state whether they agreed or disagreed with the
recommendations. They did state that Guam law requires written approval by the
Director of Agriculture and the Chief of the Division of Aquatic and Wildlife Resources
for all expenditures from the Fund. They believe these signatures attest to the
appropriateness of each expenditure.

FWS Response

FWS regional officials concurred with the recommendations and stated that they will
address any outstanding issues in the corrective action plan.

OIG Comments

While FWS concurred with the recommendations, additional information is needed in the
corrective action plan. The plan should include:

    •   specific actions planned or taken to address the recommendations,

    •   targeted completion dates,

    •   titles of officials responsible for implementation, and

    •   verification that FWS officials reviewed and approved of actions taken or
        planned by the Department.




                                         12
                                                        Appendix 1

          GUAM DEPARTMENT OF AGRICULTURE
       FINANCIAL SUMMARY OF REVIEW COVERAGE
      OCTOBER 1, 2004, THROUGH SEPTEMBER 30, 2006

                                         Questioned Costs
                                          (Federal Share)
  Grant        Grant       Claimed      Cost
 Number       Amount        Costs     Exceptions       Total
F-1-R-13      $556,612     $370,287
F-1-R-14       874,150      418,272
F-6-B-5        453,419       31,378
F-8-D-4        208,786      118,660
F-9-D-5        146,044       55,708
F-9-D-6         92,609       72,267
F-10-D-1       124,536        1,173
F-11-D-1       381,043        1,222
FW-3-C-12      282,000      136,251      $452           $452
FW-3-C-13      287,576      156,102
FW-3-C-14      220,000       94,612
W-1-R-13       336,200      173,947       821            821
W-1-R-14       270,000      179,013
 Total      $4,232,975   $1,808,892     $1,273        $1,273




                             13
                                                                              Appendix 2

                     GUAM DEPARTMENT OF AGRICULTURE
               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                     Status                         Action Required
A.1.1, A.1.2, A.2.1,   FWS management concurs          Additional information is needed in the
A.2.2, B.1, B.2,       with the recommendations, but   corrective action plan, including the
C.1, and C.2           additional information is       actions taken or planned to implement
                       needed as outlined in the       the recommendations, targeted
                       “Actions required” column.      completion date(s), the title of
                                                       official(s) responsible for
                                                       implementation, and verification that
                                                       FWS officials reviewed and approved
                                                       of actions taken or planned by the
                                                       State. We will refer recommendations
                                                       not resolved and/or implemented at the
                                                       end of 90 days (after May 14, 2008) to
                                                       the Assistant Secretary for Policy,
                                                       Management and Budget for resolution
                                                       and/or tracking of implementation.




                                             14
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
